                                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                                     Office of Inspector General
                                                                     Washington, O,C, 20230




    December 22, 2010

    MEMORANDUM FOR:                    Mary M. Glackin, Deputy Under Secretary for Operations,
                                        National Oceanic and Atmospheric Administration



    FROM:
                                       J~             t 1{[~
                                       Ann C. Eilers, Principal Assistant Inspector General for
                                          Audit and Evaluation

    SUBJECT:                           Survey a/NOAA's System and Processes/or Tracl..ing Oil Spill
                                         Costs (Final Memorandum No. OlG-II-016-M)

After the April 20, 2010, explosion of the Deepwater Horizon offshore drilling unit caused a
massive oil spill in the Gulf of Mexico, the Department of Commerce's Office of Inspector
General (OIG) initiated an audit survey to assess NOAA's system and processes for tracking
costs associated with its response and damage assessment efforts. This memorandum is to advise
you of our survey observations.

We noted that while NOAA has developed processes to track the costs associated with its oil
spill activities, improvements are needed to ensure that all costs I charged to oil spill projects­
whether funded by appropriations or reimbursements-are properly recorded in the financial
system and supported by sufficient, appropriate documentation; and that they reflect the full cost
of oil spill response, damage assessment, and restoration activities. Failure to implement
improvements could result in costs not being full y reimbursed. Due to the timing of our survey,
which focused on NOAA's early response and damage assessment activities, we were not able to
assess the processes for collecting, recording, and monitoring reimbursements of NOAA's oil
spill costs.

We provided your office with a draft of our observations on December 7,2010, and made minor
modifications and technical edits to this final memorandum based on the response we received.
Your office's comments emphasize the agency's unprecedented mobilization as a result of this
catastrophic event; further, NOAA maintains that its participation became more routine, and its
documentation of spill-related activities more consistent, as the response effort in the Gulf
stabilized. In addition, NOAA communicated that they successfully received reimbursement for
over $4 million in spill related costs on September 21,2010. Finally, NOAA acknowledges the
value of reviews such as this audit survey. As it evaluates its own execution of response
activities, the agency will closely examine the observations we provide in the following sections.




I   In this context, cost refers to the monetary value of using a government resource.
Background
As you know, NOAA is the government's leading scientific resource for oil spills. Since the
Deepwater Horizon explosion, NOAA has provided coordinated scientific, weather, and
biological services to federal, state, and local organizations. All of NOAA's offices-both in the
Gulf of Mexico region and in remote locations-playa vital role in the ongoing oil spill response
and environmental assessment activities. These activities are funded by three main sources:

   •	 The Pollution Removal Funding Authorization (PRFA) permits reimbursements to
      NOAA for certain oil spill response activities through the Oil Spill Liability Trust Fund,
      which is managed by the U.S. Coast Guard. These activities must be approved in advance
      by the U.S. Coast Guard Federal On-Scene Coordinator.

   •	 NOAA may also receive reimbursement from the party (or parties) responsible for the oil
      spill for natural resource damage assessment (NRDA) activities, which include pre­
      assessment, restoration planning, and restoration implementation. Costs associated with
      these activities are reviewed by an independent accounting firm and by the NOAA
      General Counsel for Natural Resources.

   •	 Any non-reimbursable costs incurred to support overall oil spill response efforts are
      funded via appropriations. Obligations incurred in fiscal year 2010 were funded by
      NOAA's annual appropriation and the Supplemental Appropriations Act of2010.

A description of each type of funding source is included as an attachment to this memorandum.
As of September 30, 2010, NOAA had incurred $131.4 million in obligations: $93.5 million in
reimbursable activities and $37.9 million in appropriated activities. We reviewed a fraction of
these transactions (through June), as described in the following section.

Cost-Related Observations

NOAA has established a project code structure within its core financial system, Commerce
Business Systems (CBS), for recording and tracking costs associated with NOAA's spill-related
activities; NOAA offices also have a process for recording such activities. We obtained a listing
of spill-related financial transactions recorded in CBS as of June 29, 2010, totaling $16.7 million,
and examined the supporting documentation for $9.0 million.

During our review of financial transactions, we identified several potential cost-related issues
that, ifnot addressed by NOAA management, may increase the risk that NOAA's efforts in the
Gulf will not be appropriately reimbursed:
   1.	 Unapproved Compensatory Time and Overtime. During our period ofreview,
       approximately 600 NOAA employees incurred $3.1 million in labor costs, of which
       $880,000 (28 percent) was attributable to overtime and compensatory time. Of the 41
       employees examined who were working on oil spill-related activities, 31 recorded
       overtime and compensatory time without receiving documented approval. For example,
       during the three biweekly time periods we examined, one employee incurred a total of
       $20,172 in labor-hour costs, of which $10,496 (52 percent) was unapproved overtime and
       compensatory time.



                                                 2
   2.	 Manual Transfers of Costs to Oil Spill Projects. Our interviews with NOAA officials
       indicate that some oil spill costs that had initially been charged to appropriated funds and
       commingled with other costs may be eligible for reimbursement. Additionally, during the
       three pay periods we examined in fiscal year 20 I0, unionized National Weather Service
       employees engaged in oil spill response activities were not permitted by the union to
       charge their time to oil spill project codes. In both instances, these costs must now be
       manually identified, documented, and transferred to oil spill project codes, a time­
       consuming and potentially error-prone process.

   3.	 Application ofOverhead Costs. NOAA offices charge overhead costs to oil spill projects
       based on pre-established rates in CBS. Although a verification of the overhead rate was
       beyond the scope of our review, we asked NOAA staff responsible for applying the
       overhead costs to reimbursable projects if they have an established method for verifying
       that the rate applied is accurate and reasonable. We would expect NOAA staff to develop
       a mechanism for evaluating the rate, such as historical trend analysis, in order to ensure
       that rates are accurately calculated and consistently applied. However, due to the scope of
       our review, we were unable to conclude whether a method for evaluating the
       reasonableness of the rate has been developed.

   4.	 Improper Travel Costs. During our review of28 travel-related expenses, we found one
       instance in which a non-spill-related travel expense was incorrectly charged to the NRDA
       project.

Labor, overhead, and other costs must be carefully tracked to ensure that they are accurately and
properly recorded, reported, and paid. Failure to monitor and approve overtime and
compensatory time may result in unworked labor hours being improperly billed to and
reimbursed by third parties. Finally, inadequately supported costs may call into question all costs
submitted for reimbursement to third parties.

Observations on Documenting and Tracking Personnel Activities

In addition to these cost-related concerns, we identified the following documentation and
personnel-activity tracking issues:

   1.	 Vague Descriptions on Activity Logs and Hours. Employees working on certain oil spill
       projects are required to record a description of their work and hours on activity logs.
       However, our review of the activity logs for 17 employees found that 9 recorded vague
       descriptions, such as "NRDA Planning," without providing details as to specific
       activities. By contrast, another employee's activity logs did provide sufficiently detailed
       information, such as "Development ofNRDA sea turtle subgroup; conference call to
       outline NRDA data collection plan for sea turtles; initial coordination with chemistry
       subgroup on analytical methods."

   2.	 Activity Log Data Not Recollcilillg with Timekeeping Records. Ten of the 17 employees
       whose activity logs we examined had recorded hours that did not agree with the
       timekeeping records for the same timeframe and project code. During the three biweekly
       time periods we examined, the discrepancies between activity log totals and NOAA's
       automated timekeeping system ranged from I to 28 hours.



                                                3
       3.	 II/sufficiel/t Supportil/g Documel/tatiol/ for Payroll, Travel, alUl COl/tracts. During our
           examination oflabor cost transactions for 41 employees and 2 salary cost transfers, we
           received insufficient documentation for 7 payroll transactions charged to oil spill
           projects. For example, one employee's salary costs had initially been charged to non-oil
           spill projects but were later transferred to oil spill projects; however, the line office did
           not provide the supporting documentation we requested to account for the transfer.
           Additionally, of the 47 non-payroll related transactions examined, insufficient
           documentation was received for one travel and one contract cost.

       4.	 II/complete Roster ofEmployees Deployed to the Gulf Our review of travel records
           found that while deployed to the Gulf, 13 of the approximately 100 deployed employees
           were not included on OAA's master roster of employees.

Failure to properly track employee activities can have negative results that may adversely affect
NOAA's mission in the Gulf. Because costs are reimbursed according to the activity being
performed, if NOAA does not ensure that employee activity logs provide sufficient detail or that
log data reconcile with timekeeping records, costs may not be reimbursed properly. Further,
monitoring employees' hours and maintaining an accurate list of personnel are critical to
ensuring safety and morale, as well as successfully and efficiently completing response and
assessment activities.

Recommel/datiol/

We recognize that NOAA will continue to provide significant expertise in the months and years
ahead to assess the oil spill's impact on our ecosystem and to begin restoration of damaged
natural resources. Therefore, we recommend that NOAA ensure that oil spill activities are
charged to the appropriate project, costs are accurately recorded in the accounting system, and
documentation supporting all activities and costs is complete and accurate.

We appreciate the assistance provided by NOAA staff during our survey. If you have any
questions or would like to discuss our observations, please contact me at (202) 482-2754, or
Terry Storms at (202) 482-0055.



Attachment


cc:	      Maureen E. Wylie, Chief Financial Officer, OAA
          Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration




                                                     4
            Attachment-8ummary of Funding Sources as of September 30, 2010
                                                   Obligations
Type of Activity           Description             tin millions)    Fundina Source & Process Summary
Reimbursable       Pollution Removal Funding           $35.8       Oil Spill Liability Trust Fund ­ Upon
Response           Authorization (PRFA)                            completion of the activities approved in
Activities         Agreements with the                             a PRFA agreement, NOAA compiles
                   United States Coast Guard                       documentation with detailed records of
                   (USCG), which authorize                         expenditures and activities for which
                   reimbursement of certain                        reimbursement is sought and submits it
                   removal costs incurred in                       along with an invoice to the FOSC. The
                   response to an oil spill. For                   FOSC attests that agreed upon goods
                   costs to be reimbursed,                         and services were authorized and
                   they must be for activities                     provided, and forwards it to the USCG's
                   that are approved in                            National Pollution Funds Center for
                   advance by the USCG                             payment processing. Electronic
                   Federal On-Scene                                payment is made to NOAA via the lntra-
                   Coordinator (FOSC).                             Governmental Payment and Collection
                                                                   Svstem.
Reimbursable       Natural Resource Damage            $57.7        Responsible Party or Parties ­
Assessment and     Assessment (NRDA)                               Periodically, NOAA compiles
Restoration        includes:                                       documentation with detailed records of
Activities         • Pre-assessment                                expenditures and activities for which
                       activities ­ natural                        reimbursement is sought. This
                       resource trustees                           documentation is reviewed by an
                       assess injuries and                         independent public accounting firm and
                       determine if they can                       by NOAA's General Counsel for Natural
                       and should perform                          Resources. The documentation, along
                       restoration planning;                       with a request and instructions for
                   •   Restoration      Planning                   payment, is forwarded to the
                       -trustees evaluate                          responsible party's or parties' counsel. If
                       injuries and determine                      approved, payment is made in
                       activities needed to                        accordance with the instructions.
                       restore damaged
                       resources;
                   • Restoration
                       Implementation ­
                       implementing the
                       plans and monitoring
                       post-implementation
                       proqress
Non-               These activities are               $37.9        Appropriations ­ $27.4 million of these
Reimbursable       necessary to support the                        obligations were funded by the
Response and       overall oil spill effort.                       Supplemental Appropriations Act of
Support            However, they are not                           2010. Remaining $10.5 million of
Activities         reimbursable under the                          obligations were funded by NOAA's
                   PRFA and not considered                         annual appropriations.
                   NRDA activities.




(OAE-1990 I)



                                                     5
